                                                                        OIG Report No. 09-14


           Evaluation of NARA's FY 2008 Management Control Program

Executive Summary

The Federal Managers' Financial Integrity Act (FMFIA) of 1982 (Public Law 97-255)
requires ongoing evaluations and reports of the adequacy of internal accounting and
administrative control of each executive agency. The Act requires the head of each
agency to annually prepare a statement on the adequacy ofthe agency's systems of
internal accounting and administrative control. Office of Management and Budget
(OMB) Circular A-123 (Revised), Management's Responsibility for Internal Control,
contains guidance for implementing FMFIA. OMB A-123 requires management to
annually report on internal control in its Performance and Accountability Report (PAR),
including a report on identified material weaknesses and corrective actions. It also
provides that the agency head, in preparing the annual assurance statement, should
consider input from the Office ofInspector General.

Annually, the OIG performs a review to ensure agency managers continuously monitor
and improve the effectiveness of internal controls associated with their programs. This
continuous monitoring in conjunction with other periodic evaluations provides the basis
for the agency head's annual assessment of, and report on, internal controls as required
byFMFIA.

Our initial assessment of the agency's FY 2008 assurance statement, as conveyed in our
October 31, 2008 memorandum (See Attachment A), was that the statement was
inaccurate and underreported material risk associated with NARA's Preservation and
Processing programs. This is the same conclusion we reached and conveyed to the
agency in our assessment oftheir FY 2007 assurance statement.

Subsequently, we reviewed the open recommendations from last years audit report and
found that management has not yet taken completed action to close the recommendations.
The three recommendations contained in the FY 2007 report were for the Policy and
Planning Staff (NPOL) to work with NARA offices and management control liaisons to
(1) stress the importance of performing internal control assessments in accordance with 

management control plans; 

(2) ensure the results of the assessments are included in the assurance statements, and; 

(3) revise, as necessary, the lists of "critical functions" to be reviewed. 

The result is NARA continues to exhibit weaknesses in internal controls first identified in 

FY 2007 that degrade the effectiveness of internal controls and the accuracy of office 

assurance statements. 


We also performed a detailed review of assurance statements for the five major program
offices (e.g. NA, NH, NL, NR, and NW) and found (1) one program office was not
reviewing the results of security self assessments and (2) one program office did not
include all relevant program review findings in their assurance statement.




                      National Archives and Records Administration                         1
                                                                         OIG Report No. 09-14


Our review also revealed Office of Administrative Services (NA) sub offices improved
their evaluation, reporting, and documenting of internal control testing from the previous
year. Specifically, NA sub-offices included the results of internal control testing in their
assurance statements and were able to produce adequate documentation to support such
reviews took place in accordance with guidance established in NARA 114, Management
Controls.

We are making three recommendations which we believe, once implemented, will
strengthen weaknesses cited in this review.

Background

The Federal Managers' Financial Integrity Act (FMFIA), Public Law 97-255, requires
each agency to establish controls that reasonably ensure: (1) obligations and costs comply
with applicable law, (2) assets are safeguarded against waste, loss, unauthorized use or
misappropriation, and (3) revenues and expenditures are properly recorded and accounted
for. In addition, the agency head must annually evaluate and report on the systems of
internal accounting and administrative control.

The Office of Management and Budget (OMB) Circular A-123, Management's
Responsibility for Internal Control, defines management's responsibility for internal
control in Federal agencies. It provides guidance to Federal managers on improving the
accountability and effectiveness of Federal programs and operations by establishing,
assessing, correcting, and reporting on internal control. OMB revised Circular A-123 in
response to the Sarbanes-Oxley Act, effective in fiscal year 2006. This revision
strengthened the requirements for management's assessment of internal control over
financial reporting. The new requirements apply only to the 24 Chief Financial Officer
Act agencies, thus exempting NARA from performing an A-127 review and reporting
pursuant to Section 4 of the FMFIA. However, NARA is still required to report on
internal controls pursuant to Section 2 ofFMFIA.

NARA issued Directive 114, Management Controls, to help managers implement the
requirements ofOMB A-123. NARA 114 defines responsibilities; defines the types of
reviews that could be considered internal control assessments; identifies documentation
that must be maintained in support of an internal control evaluation, and; addresses the
development and maintenance of management control plans. Among the responsibilities
defined by this guidance, Office Heads are required to identify and analyze risk and the
Policy and Planning Staff (NPOL) are required to provide oversight, guidance, and
assistance to NARA offices concerning implementation of the NARA internal control
program.

Assurance statements and information relating to FMFIA Section 2, Section 4 (from
which NARA is exempt), and internal control over financial reporting should be provided
in a single FMFIA report section of the annual Performance and Accountability Report
(PAR) labeled "Management Assurances." The section should include the annual
assurance statement, summary of material weaknesses and non-conformances, and



                       National Archives and Records Administration                            2
                                                                        OIG Report No. 09-14


summary of corrective action plans. Furthermore, FMFIA requires the Archivist to
annually submit to the President and Congress (1) a statement on whether there is
reasonable assurance that the agency's controls are achieving their intended objectives;
and (2) a report on material weaknesses in the agency's controls.

Objectives, Scope, and Methodology

The purpose of our evaluation was to determine the extent to which there is sufficient
evidence NARA complied with the requirements of the FMFIA, OMB Circular
A-123, and NARA 114, to support the Archivist's fiscal year 2008 assurance statement.
Specifically, our objectives were to (1) assess whether management is continually and
consistently reviewing critical areas, and (2) verify the accuracy of information contained
in management's assurance statements to the Archivist.

To accomplish our objective, we examined the assurance statements and related internal
control evaluation documents submitted by NARA office heads, reviewed additional
supporting documentation maintained by the offices, and met with management control
liaisons and other management officials. We performed a detailed review of the
assurance statements and management control plans for the five major program offices
(e.g. NA, NH, NL, NR, and NW). We also performed a desk audit of the staff offices.
Finally, we reviewed the controls associated with classified security self inspections.
Specifically, we
     • 	 reviewed management's evaluation of controls in accordance with each office's
         Management Control Plan for FY 2008 and agency guidance concerning the
         conduct of such evaluations;
     • 	 reviewed files related to the preparation of assurance statements to ensure they
         provided appropriate support for management statements;
     • 	 reviewed sub-office (e.g. NAF, NAR, NAS, etc.) assurance statements to
         determine if the next higher level of management was performing a sufficient
         review of information passed up to them;
     • 	 reviewed the status of recommendations made in prior year reports, and;
     • 	 reviewed compliance with the annual classified information security self­

         inspection. 


To facilitate the submission ofNARA's annual assurance statement we performed a
preliminary review of the agency assurance statement in October 2008.

This audit was conducted in accordance with generally accepted government auditing
standards (GAGAS) between October 2008 and May 2009. These standards require we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                      National Archives and Records Administration                          3
                                                                           OIG Report No. 09-14




Prior Year Audit Recommendations Remain Open

Our review found recommendations for corrective action contained in our FY 2007
assurance statement audit have not been implemented. In our FY 2007 audit l we
recommended the Policy and Planning Staff (NPOL) work with offices in general, and
management control liaisons in particular, to
    • 	 stress the importance of performing internal control assessments of critical areas
        in accordance with management control plans and NARA 114;
    • 	 ensure the results of the assessments are included in the assurance statements,
        and;
    • 	 revise, as necessary, the lists of "critical functions" to be reviewed.

These recommendations were aimed at both addressing non-compliance with provisions
ofNARA 114 and OMB A-123 and modifying existing management control plans which
too narrowly defined/identified "critical functions" to allow for proper testing and
evaluation of controls. As noted in the report, the majority of problems were associated
with the smaller staff offices.

As we began our review of the staff office assurance statements we identified many of
the same weaknesses noted in FY 2007. Notably, "critical functions" had not been
revised and continued to be narrowly identified (more analogous to work processes) and
assurance statements did not include the results of internal control evaluations or
documentation to support such evaluations. For example, one office's assurance
statement indicated an internal control assessment ofthe timeliness of complaint
processing was to be evaluated in FY 2008, but included no further information on the
testing methodology employed or the results of the review. We discussed these
preliminary results with the agency's management control liaison, who stated the
continuation of previously identified weaknesses was not surprising, but would be
remedied once management took action to address findings in the FY 2007 audit report.
She also stated that she had worked with NA and NA sub offices on improving their
internal control testing and reporting in FY 2008. As noted in the Executive Summary
portion of this report, NA and its sub offices showed improved testing and reporting in
FY2008.

OMB Circular A-123 requires the agency and individual managers to take systematic and
proactive measures to assess the adequacy of internal controls in Federal programs and
operations, identify needed improvements, take corresponding corrective action, and
report annually on internal controls in order to be accountable for their area of control.
NARA Directive 114 provides guidance for establishing, assessing, correcting, and
reporting on internal controls. Both documents convey the elements necessary for
conducting and documenting sufficient internal control reviews.



1 OIG Audit Report No. 08-06, Evaluation ofNARA's FY 2007 Management Control Program (March 7,
2008)


                       National Archives and Records Administration                              4
                                                                                 OIG Report No. 09-14


Failing to consistently review critical areas/programs weakens management
accountability and decreases the likelihood problems will be identified and program risks
minimized. Furthermore, it promotes a false sense of assurance about the level of
program or function oversight provided by management and could result in an agency
assurance statement which inaccurately conveys risk.

Recommendation 1. The Director of Policy and Planning should ensure
recommendations from OIG Report No. 08-06 are implemented and previously identified
weaknesses are corrected. 2 Specifically, those recommendations require
      a. NPOL stress to management the importance of performing internal control
          assessments of their critical areas in accordance with their management
          control plans. This includes ensuring reviews are documented in accordance
          with NARA 114.6. Management control liaisons and upper managers should
          be reminded of their responsibility for reviewing sub-office and sub-unit
          assurance statements and ensuring internal control reviews are conducted and
          documented.
      b. NPOL revise NARA 114 to require the results of internal control reviews,
          conducted in accordance with each offices management control plan, be
          included in each offices assurance statement.
      c. The NARA management control liaison should work with the offices and
          office management control liaisons to review, and revise as necessary, the
          "critical functions" contained in the management control plans. The revision
          to these plans should seek to identify and rank risks to major program and
          functional areas and undertake internal control reviews of major risk areas.

Management Response

Management concurred with our recommendations.



Internal Control Assessment Results are not Evaluated

We found the results of Information Security Self Inspections were not reviewed or
evaluated by the Information Security Officer. Specifically, we found responsible units
are completing the self-evaluation checklists and forwarding them to the Information
Security Officer, however, no further action was taken. Reviewing the results of internal
control assessments, including identification of deficiencies and the formulation and
monitoring of corrective action, is a critical component of internal control monitoring and
testing. Without "closing the loop" on this internal control process NARA cannot be
assured that weaknesses are identified and properly mitigated.

NARA 2008-258, Annual Information Security Self-Inspection, requires all Information
Security Program Managers (lSPMs) conduct an annual self inspection of areas under

2 Because the recommendations from OIG Audit Report No. 08-06, Evaluation ofNARA's FY 2007
Internal Control Program, are carried forward to this audit, OIG Report No. 08-06 can be closed.


                         National Archives and Records Administration                               5
                                                                       OIG Report No. 09-14


their cognizance in accordance with NARA 202, NARA Classified Infonnation Security
Program. The self-inspection consists of an eight page self evaluation guide to be
completed by ISPMs and provided to the Infonnation Security Officer. Any items found
to be non-compliant must be corrected immediately or tracked through monthly status
reports.

We sampled the self-inspection results for six ISPMs and were provided with completed
self-inspection checklists for all six. When we asked the Infonnation Security Officer for
the results of his review of the self-evaluations we were infonned no reviews were
conducted and the evaluations were placed in file for future reference. In addition to the
review and evaluation requirements contained in NARA 2008-258, NARA's internal
control guidance requires evaluation of self-assessments by a knowledgeable party. The
evaluation must include an evaluation of the results, written notice of concurrence or
disagreement, and any recommended corrective actions. While there are not currently
any controls concerning the review and analysis of infonnation security self inspections,
the Infonnation Security Officer stated he intends to develop procedures for the review of
infonnation security self assessments, including provisions for identifying instances of
non-compliance and tracking corrective actions and estimated this would be completed
by October 2009.

As a result of deficiencies in controls over infonnation security self-assessments NARA
lacks assurance infonnation security weaknesses are appropriately identified, reported,
and resolved and could result in underreporting of risk in the agency assurance statement.

Recommendation 2. The Assistant Archivist for Administrative Services should ensure
Annual Infonnation Security SelfInspection results are reviewed in a timely manner,
instances of non-compliance are identified, and corrective actions are monitored; and self
inspections are reviewed and documented in accordance with guidance concerning self­
assessments contained in NARA 114. If a fonnal process as referred to by the
Infonnation Security Officer cannot be completed in time to facilitate the review ofFY
2009 infonnation security self inspections an alternate means of reviewing the checklists
should be developed.

Management Response

Management concurred with our recommendation.



"Significant" Findings Need to be Better Defined in NARA Internal Control Policy

Our review revealed one program office excluded from their assurance statement over
85% of findings identified through program reviews. While NARA's internal control
guidance (e.g. NARA 114) allows agency management to detennine whether findings are
significant enough to report to the Archivist, it does not provide criteria on which such
decisions are based or requirements for documenting and supporting such decisions. As a



                      National Archives and Records Administration                        6
                                                                         OIG Report No. 09-14


result such decisions can appear "ad hoc" and adversely impact the consistency ofthe
reporting process.

In FY 2008, the Office of Regional Records Services (NR), a major program office, had
51 findings related to program reviews. Ofthese, seven were classified by the office
head as major/significant and included in the assurance statement to the Archivist. The
remaining 44 findings were considered to be minor and not transmitted to the Archivist
via assurance statement. We reviewed these 44 findings and identified three that we
believe are major:
    • 	 A finding that there are no internal controls in place to prevent unauthorized use
        or theft of GSA fleet vehicles;
    • 	 A lack of separation of duties between ordering and receiving accountable 

        property, and; 

    • 	 Inconsistencies in NARS-5 data that could result in premature disposals and
        improper customer billing.

We asked NR for information supporting their conclusion to categorize these three
findings as minor in an effort to better understand their decision process and criteria used
in evaluating findings. NR management responded that based on deliberation and
discussion of these issues at the completion of the program review it was determined they
were minor because no actual adverse impacts were observed or identified during the
program review and the resolution of identified deficiencies required very little time or
resources. The absence of detected or observed adverse impacts is not sufficient reason
to classify a finding as minor. The goal of internal controls is to prevent or detect adverse
impacts and the point of monitoring and testing is to identify the absence of internal
controls; internal controls which are not properly functioning, or; internal controls which
are not properly designed. The absence of guidance detailing the process which should
be used in evaluating findings; the criteria which should be applied, and; the information
which should be maintained to support such a decision has resulted in an uneven
approach to evaluating findings and their relative importance and adversely impacts the
consistency of office assurance statements.

Additionally, NR does not formally track corrective action for minor findings. This
means in FY 2008 corrective action for over 85% of the program review findings was not
formally tracked. An important element in effective internal control monitoring/testing is
ensuring deficiencies are evaluated and corrected in a timely manner. This helps ensure
controls aimed at mitigating risks are in place and properly functioning. During the
conduct of our audit we discussed with the NR management control liaison our concern
that such a large number of the program findings were not formally tracked to resolution.
The NR management control liaison responded NR was considering requiring regions to
report on all program review findings until such time as they are effectively closed.




                       National Archives and Records Administration                          7
                                                                                       Attachment B
                     National Archives and Records Administration
                                                                                      8601 Adelphi Road
                                                                     College Park, Maryland 20740-6001


Date:         AUG 2 6 2009
To:          OIG

From:        NPOL, NA, and NR

Subject:     OIG Draft Audit 09-14, Audit ofNARA's FY 2008 Management Control Program


             Thank you for the opportunity to comment on this draft audit report. This memorandum
             represents the combined comments of these offices to the draft report dated July 28,2009.

             We concur with recommendations 1 and 3, and will offer more detail in our action plan
             following release of the final report. We concur with the intent of recommendations 2 and 4,
             but may need to make adjustments as we devise an action plan to address the findings while
             not further straining available resources.

             If you have questions about these comments, please contact Mary Drak at 301-837-1668 or by
             email at mary.drak@nara.gov.

           fj~{Y7~
        ~	 SUSAN M. ASHTIANIE 

           Director, 

           Policy and Planning Staff 

                                                                      OIG Report No. 09-14


Recommendation 3. The Archivist should ensure NARA policy on internal controls
(such as NARA 114) is revised to specifically address the process by which findings are
evaluated and categorized; criteria used in the decision making process, and;
documentation necessary to support such conclusions.

Management Response

Management concurred with our recommendation.

Recommendation 4. The Assistant Archivist for Regional Records Services should
ensure all program findings, regardless of whether they are considered major or minor,
are tracked to resolution and supported by adequate documentation.

Management Response

Management concurred with our recommendation.




                      National Archives and Records Administration                        8
